NO.

i

filed
AUG 19 2021
IN THE

iS®icS!fR?Lef,K
US.

SUPREME COURT OF THE UNITED STATES

LUKE W. CAIN

-PETITIONER
VS.

ROBERT BURTON,WARDEN

-RESPONDENTS)

ON PETITION FOR A WRIT OF CERTIORARI TO

THE CALIFORNIA SUPREME COURT
PETITION FOR WRIT OF CERTIORARI
LUKE W. CAIN
CALIFORNIA HEALTH CARE FACILITY
STOCKTON, CALIFORNIA 95213

RECEIVED
OCT - 1 2021
9r.p£#ft?EFcqSrt ull

I

QUESTIONS ) PRESENTED
1

GENERALLY, A FEDERAL COURT MAY NOT REVIEW A STATE COURT SENTENCE THAT IS WITH­

2 IN THE STATUTORY LIMITS. IT MAY VACATE A SENTENCE, HOWEVER IF IT WAS IMPOSED
3 CN VIOLATION OF THE CONSTITUTION,LAWS, OR TREATIES OF THE UNITED STATES.
4
5 '[HE DOUBLE JEOPARDY CLAUSE DOES NO MORE THAN PREVENT THE SENTENCING COURT FROM
6 PRESCRIBING GREATER PUNISHMENT THAN THE LEGISLATURE INTENDED. (SEE MISSOURI V.
7 HUNTER, 459 U.S. 359,368-369.) AN INFORMATION WAS FILED AGAINST THE PETITIONER
8

[NT THE STATE COURT, CHARGING HIM WITH FOUR COUNTS OF KIDNAPING FOR ROBBERY, SIX

9 COUNTS OF ROBBERY, AND ONE COUNT OF DISUADING A WITNESS FOR WHICH HE WAS SUB10 SEQUENTLY FOUND GUILTY OF. THOUGH BOTH THE PROSECUTO AND THE TRIAL COURT CON11 CEEDED THAT PETITIONERl,|S ENTIRE GOAL WAS TO ROB THE VICTIMS AND WHEN THE MOVE12 iIENT BEGAN, IT WAS TO FURTHER HIS GOAL TO ROB THEM. (IN EXAMPLE,IT WAS ONE INTENT
13 aND OBJECTIVE AND A CONTINUOUS COURSE OF CONDUCT) THE TRLAL COURT NEVERTHELESS
14 : IMPOSED SEPERATE PUNISHMENTS FOR COUNTS 5 AND 9 DURING A SINGLE TRIAL.
15
16 WLTIPLE PUNISHMENTS ARE PERMISSIBLE "WHEN THE LEGISLATIVE INTENT IS CLEAR
17 IRON THE FACE OF THE STATUTE OR THE LEGISLATIVE HISTORY." (GARRETT V. UNITED
18 STATES, 471 U.S. AT 799) HERE, PENAL CODE § 669 AUTHORIZEZ MULTIPLE PUNISHMENTS
19 I OR MULTIPLE OFFENSES REGARDLESS OF WHETHER THEY ARISE OUT OF THE SAME TRIAL,
20 :HE SAME ACT OR COURSE OF CONDUCT OR UNDERLYING CIRCUMSTANCES. PENAL CODES §§
21

54 AND 654 DO NOT AUTHORIZE MULTIPLE PUNISHMENTS FOR MULTIPLE OFFENSES ARISING

22 OUT OF THE SAME TRIAL, THE SAME ACT OR COURSE OF CONDUCT OR UNDERLYING CIRCUM­
23 STANCES. BECAUSE THE LEGISLATURE'S INTENT IS NOT CLEAR FROM THE FACE OF THE
24 PENAL CODES ON WHETHER MULTIPLE PUNISHMENTS ARE PERMISSIBLE AND BECAUSE THE
25 SRIAL COURT IMPOSED SEPERATE SENTENCES DURING A SINGLE TRIAL FOR ONE CONTIN26

OUS COURSE OF CRIMINAL CONDUCT, THE ONLY QUESTION AS TO THE ISSUE OF MULTIPLE

27-

PUNISHMENT THEN IS THE LEGISLATIVE INTENT IN ENACTING THE ABOVE PENAL CODES.

28

3 HE QUESTIONS PRESENTED ARE: WHAT PUNISHMENTS ARE CONSTITUTIONALLY

II

1

PERMISSIBLE ? AND WHETHER PETITIONERS CONSECUTIVE SENTENCE IS CONSTITUTIONALLY

2 PERMISSIBLE ?
3
4

TABLE OF CONTENTS

\

5 PETITION FOR WRIT OF CERTIORARI.
6

3PINIOS AND ORDERS BELOW.

7

OPINIONS AND ORDERS FROM THE CALIFORNIA STATE COURTS.

8

JURISDICTION.

9

CONSTITUTIONAL AND STATUTORY PROVISIONS.

10

STATEMENT OF THE CASE.

11

REASONS FOR GRANTING CERTIORARI.

12

ARGUMENT I.

13
14

JHAT PUNISHMENTS THE LEGISLATIVE BRANCH AUTHORIZE AS
CONSTITUTIONALLY PERMISSIBLE FOR MULTIPLE OFFENSES IS
'JOT CLEAR ON ITl’lS FACE.

15

ARGUMENT II

16
17

BECAUSE THE SENTENCING COURT IMPOSED GREATER PUNISH­
MENT THAN THE LEGISLATURE INTENDED, PETITIONER'S
SENTENCE MAY NOT BE CONSTITUTIONALL PERMISSIBLE.

18

CONCLUSION.

19

APPENDIX.

20

JRDER DENYING THE PETITION FOR REVIEW, CALIFORNIA SUPREME COURT, MAY 26, 2021.

21

)RDER DENYING PETITION FOR WRIT OF HABEAS CORPUS, COURT OF APPEALS, FOURTH
APPELLATE DISTRICT, DIVISION TWO, MARCH 19, 2021.

22
23 ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS, RIVERSIDE SUPERIOR COURT,
UOV. 13, 2020.
24
25 (ASE

PAGE (S)

TABLE OF AUTHORITIES

26

ALBERNAZ V. UNITED STATES, 450 U.S. 333,344

3

27-

BROWN V. OHIO, (1977) 432 U.S. 161,165

5

28

III

CASE

PAGE(S)

1

HOLTON V. HALL, 386 FED. APPX. 606,607 (9TH CIR. 2010).

4

2

JONES V. THOMAS', (1989) 429 U.S. 376,381.

5

3

1ISS0URI V. HUNTER, (1983), 459 U.S. 359,1*66,368,369.

2,5

4

)HIO V. JOHNSON, 476 U.S. 493,499.

5

5

3REGAN V. ICE (2009), 555 U.S. 160,^66

4

6

PEOPLE V. BLACK (2007), 41 CAL. 4TH 799,821,822.

4

7

"EOPLE V. HESTER, (2000), 22 CAL. 4TH 290,294.

4,6

8

3LACENCIA V. AIAMEIDA, 467 F.3D 1190,1204 (9TH CIR. 2006).

5

9

JNITED STATES V. BAKER, 63 F.3D 1478,1494 (9TH CIR. 1995).

3

10

JNITED STATES V. WHITE, 116 F.3D 903,932.

3

11

JHALEN V. UNITED STATES (1980), 445 U.S. 684,688.

4

12

PENAL CODES

13

5ENAL CODE § 654

4,6

14

:>ENAL CODE § 669

4

15

>ENAL CODE § 954

4

16

STATUTES

17

:8 U.S.C § 1257 (a).

1

18

:8 U.S.C § 2254 (a).

1

19

SUPREME COURT RULES

20 RULE 13

1

21

1

. 22
23
24
25
26
27
28

.ULE 30.1

1
PETITION FOR WRIT OF CERTIORARI

1

JJKE W. CAIN RESPECTFULLY PETITIONS FOR A WRIT OF CERTIORARI TO REVIEW THE

2 DENIAL OF THE PETITION FOR REVIEW IN THE SUPREME COURT OF CALIFORNIA.
3
4

OPINIONS AND ORDERS BELOW

5

OPINIONS AND ORDERS FROM THE CALIFORNIA STATE COURTS

6 IHE MAY 26,2021 ORDER OF THE SUPREME COURT OF CALIFORNIA DENYING MR. CAINES
7 PETITION FOR REVIEW IS ATTACHED AT APP.l. THE MARCH 19,2021 ORDER OF THE CALI­
8 FORNIA COURT OF APPEALS, FOURTH APPELLATE DISTRICT,DIVISION TWO DENYING MR.
9 CAINl'S PETITION FOR WRIT OF HABEAS CORPUS IS ATTACHED AT APP.2. THE NOV 13,2000
10 ORDER OF THE RIVERSIDE SUPERIOR COURT DENYING MR. CAIN’S PETITION FOR WRIT OF
11

HABEAS CORPUS IS ATTACHED 'AT"APP. 3- -

12
JURISDICTION

13
14

THIS PETITION ARISES FROM PROCEEDINGS ON AN APPLICATION FOR WRIT OF HABEAS

15

CORPUS, FILED PURSUANT TO 28 U.S.C § 2254. THE SUPREME COURT HAS APPELLATE

16

JURISDICTION TO REVIEW THIS CASE UNDER 28 U.S.C. § 1257 (a). IHE SUPREME COURT

17

OF CALIFORNIA FILED OTS ORDER DENYING THE PETITION FOR REVIEW ON MAY 26, 2001,

18

THIS PETITION IS TIMELY PURSUANT TO SUPREME COURT RULES 13 AND 30.1.

19
20

CONSTITUTIONAL AND STATUTORY PROVISIONS

21

JlHIS CASE INVOLVES THE APPLICATION OF 28 U.S.C. § 2254 WHICH PROVIDES: A FED-

22

£RAL COURT MAY ENTERTAIN A PETITION FOR WRIT OF HABEAS CORPUS "IN BEHALF OF A

23 ‘PERSON IN CUSTODY fURSUANT TO THE JUDGMENT OF A STATE COURT ON'THE' GROUND

,

24 '^HAT. HE IS IN-' CUSTODY IN VIOLATION OF THE.CONSTITUTION OR;.LAWS OR TREATIES OF
25 *[HE UNITED STATES," R8 U.S.C.r ‘§ :2254(a). THE WRIT.OF.HABEAS CORPUS LIES WHEN>IH
26 miALOTURT HAS SENTENCED A DEFENDANT TO A TERM IN EXCESS OF' THE MAXIMUM PRO­
27 VIDE BY LAW.,.. THE WRIT WILL ISSUE... TO REVIEW AN INVALID SENTENCE WHEN,

28 Without the

redetermination of any facts, the judgment may be corrected to

?!

2
*:■

1

" ACGORD WITH THE ONLY OTHER POSSIBLE DETERMINATION IN THE CIRCUMSTANCES." THE

2 APPLICABILITY OF A STATUTE IS A QUESTION OF LAW WHEN THE FACTS ARE CONCEEDED.
3 NEAL,SUPRA, 55- CAL. 2D 11.) THIS CASE ALSO INVOLVES THE LEGISLATIVE INTENT
4 OF CALIFORNIANS PEWAL CODE § 654 AND ITS APPLICATION WHICH PROVIDES:IF THE SEV5 VERAL CHARGES ARE TRIED IN A SINGLE PROCEEDING, THE DEFENDANT MAY BE FOUND GUI­
6 LTY OF ALL THE OFFENSES, BUI UNDER P.C. [§] 654,ONLY ONE PUNISHMENT MAY BE IMF
7 OSED. IT FURTHER HOLDS: IF MANY OFFENSES WERE INCIDENT TO ONE OBJECTIVE, A DEE
6 MIDANT MAY ONLY BE PUNISHED FOR THE OFFENSE CARRYING THE GREATEST PUNISHMENT.
9 ;SEE 1 WITKIN, SUMMARY OF CALIFORNIA CRIMINAL LAW 3D (WEST LAV(20G0$ CHAPTER
10 III DEFENSES § 168)(SEE ALSO GOODEL, 243 CAL. APP. 4TH 484.) THIS CASE ALSO
11

INVOLVES THE DOUBLE JEOPARDY CLAUSE OF THE FIFTH AMENDMENT WHICH PREVENTS THE

12 SENTENCING COURT FROM PRESCRIBING GREATER PUNISHMENT THAN THE LEGISLATURE INT­
13
14

ENDED. (MISSOURI V. HUNTER, 459 U.S. 359). IT INVOLVES P.C. §§ 669 AND 954 ALSO.
STATEMENT OF THE CASE

15 \ JURY FOUND MR. CAIN GUILTY OF KIDNAPING FOR ROBBERY AND ROBBERY, THE COURT
16
17

STAYED SENTENCE IN COUNTS 6,7,9,10, AND 11 UNDER P.C. § 654, BUT IMPOSED SEPE-

18

*ATE PUNISHMENT'S IN COUNH S 5 AND 9. ON HABEAS MR. CAIN CONTENDED THAT REVERSAL IS REQUIRED BECAUSE HIS SENTENCE WAS FUNDAMENTALLY UNFAIR, IN VIOLATION OF

19

m PROCESS (LUKE W. CAIN ON HABEAS, CASE NO. RIC2004095) THE RIVERSIDE COURT

20 REJECTED THE CLAIMS. MR. CAIN FILED A NEW HABEAS IN THE COURT OF APPEALS, FOU21 RTH APPELLATE DISTRICT,DIV. TWO, THIS COURT ALSO DENIED RELIEF. MR. CAIN FILED
22 ^ TIMELY PETITION FOR REVIEW IN THE CALIFORNIA SUPREME COURI. HE ARGUED: THE
23 STATES MISAPPLICATION OF ITS OWN SENTENCING LAWS AND STATUTORY OOIWANDS OF P.C.
24 i-54 WAS FUNDAMENTALLY UNFAIR AND RESULTED IN AN UNAUTHORIZED SENTENCE AND THAT
25 :HERE WAS INSUFFICIENT EVIDENCE TO SUPPORT A FINDING OF SEPERATE INTENTS' AND
26 OBJECTIVES IN COUNTS 5 AND 9 IN VIOLATION OF DUE PROCESS. THE CALIFORNIA SUPREME
27- :OURT DENIED HIS PETITION WITHOUT CITATION TO ANY CASES ON MAY 26,2021. THIS
28

PETITION FOR WRIT OF CERTIORARI FOLLOWS:

3
REASON(S) FOR GRANTING REVIEW
1

[HIS CASE INVOLVES QUESTIONS OF CONSTITUTIONAL MAGNITUDE, IT ALSO INVOLVES A

2 /IOLATION OF THE DOUBLE JEOPARDY CLAUSE OF THE FIFTH AMENDMENT AND A VIOLATION
3 )F THE FOURTEETH AMENDMENTS DUE PROCESS GUARANTEE AT SENTENCING. BECAUSE THE
4 QUESTION OF WHETHER THE PUNISHMENTS IMPOSE BY THE RIVERSIDE SUPERIOR COURT
5 ^FTER CAINES^S CONVICTION UPON CRIMINAL CHARGES ARE UNCONSTITUTIONALLY MULTIPIE
' 6 EANNOT BE RESOLVED WITHOUT DETERMINING WHAT PUNISHMENTS THE CALIFORNIA LEGIS7 LATIVE BRANCH AUTHORIZED AS CONSTITUTIONALLY PERMISSIBLE, REVIEW OF THIS CASE
8 IS NECESSARY.
9
10
11

ARGUMENT ONE
WHAT PUNISHMENTS THE LEGISLATIVE BRANCH AUTHORIZED AS CONSTITUTION­
ALLY PERMISSIBLE FOR MULTIPLE OFFENSE IS NOT CLEAR ON ITS FACE.

12
13

IN ALBERNAZ V. UNITED STATES (1980),450 U.S. 333,344, THE COURTS HELD " THE

14

QUESTION OF WHAT PUNISHMENTS ARE C0NSTITUTI0NA4LY PERMISSIBLE IS NOT DIFFERENT

15

FROM THE QUESTION OF WHAT PUNISHMENTS THE LEGISLATIVE BRANCH INTENDED TO IMP­

16

OSE. (SEE WHALEN V. UNITED STATES, (1980),445 U.S. 684,688) HOLDING "THE QUE­

17

STION OF WHETHER PUNISHMENTS IMPOSED BY A COURT AFTER A DEFENDANTS CONVICTION

18

UPON CRIMINAL CHARGES ARE UNCONSTITUTIONALLY MULTIPLE CANNOT BE RESOLVED WITH-

19

OUT DETERMINING WHAT PUNISHMENTS THE LEGISLATIVE BRANCH AUTHORIZED.

20
21

SEVERAL CASE ILLISTRATE THAT WHERE THER IS CLEAR EVIDENCE OF LEGISLATIVE INT-

22

ENT, MULTIPLE SENTENCES ARE POSSIBLE EVENTHOUGH A BLOCKBURGER ANALYSIS WOULD

23

INDICATE .OTHERWISE." (UNITED STATES V. WHITE, 116 F. 3D 903,932.) "EVEN IF ONE

24

3RIME IS A LESSER INCLUDED OFFENSE OF ANOTHER, PUNISHMENTS MAY BE IMPOSED FOR

25

$OTH 'IF CONGRESS INTENDED THAT THEY BOTH BE IMPOSED." (QUOTING UNITED STATES

26

h BAKER, 63 F.3D 1478,1494 (9TH CIR. 1995).) THE SUPREME COURT HAS HELD THAT

27-

JHEN A DEFENDANT HAS BEEN TRIED AND CONVICTED IN A STATE COURT OF MUlftIPLE OFF-

28

iNSES, EACH INVOLVING DISCRETE STATE COURT SENTENCING PRESCRIPTIONS, IT DOES

4
1

'30T OFFEND THE FEDERAL CONSTITUTION IF UNDER STATE LAW A STATE JUDGE IS INT­

2 RUSTED WITH DISCRETION TO DECIDE WHETHER .THE SMCENCES FOR THE DISTINCT OFFE­
3 NSES SHALL BE SERVED CONSECUTIVELY OF CONCURRENTLY (SEE OREGAN V. ICE, (2009) j
4 555 U.S. 160,166, SEE ALSO COLTON V..HALL, 386 FED. APPX. 606,607-09 (9TH CIR,
5 2010)(UNPUBLISHED)(STATE MAY ASSIGN TO JUDGES DESCRETION WHETHER TO IMPOSE
6 CONSECUTIVE SENTENCING)(CITING ICE); PEOPLE V. BUCK, 41 CAL. 4TH 799,821,822
7 JNDER CALIFORNIA UW f TRIAL COURT HAS DISCRETION TO DECIDE WHETHER TO IMPOSE
8 CONCURRENT OR CONSECUTIVE SENTENCES FOR DISCRETE OFFENSES.(SEE PENAL CODE §
9 569, REQUIRERING THAT WHEN A PERSON HAS BEEN CONVICTED OF TWO OR MORE OFFENSES
10 CHE COURT MAY DECIDE WHEIHER THE TERMS ARE TO BE CONCURRENT OR CONSECUTIVELY
11

REGARDLESS OF AGGRAVATING AND/OR MITIGATING FACTORS (i.e., WHETHER TWO DISTINCT

12

CRIMES ARE COMMITTED DURING A SINGLE CRIMINAL EPISODE,) THUS, UNDER THE PUIN

13

LANGUAGE OF § 669, THERE IS NO PROTECTION FROM MULTIPLE PUNISHMENTS. THIS IS A

14

CLEAR INDICATION OF THE LEGISLATIVE INTENT TO AUTHORIZE AS CONSTITUTIONALLY

15

PERMISSIBLE CONCURRENT OR CONSECUTIVE SENTENCES.

16
17

HOWEVER, ON THE OTHER HAND, CALIFORNIA STATUTORY AND CASE PERMIT CONVICTION

18

OF MULTIPLE OFFENSES BASED ON A SINGLE ACT OR INDIVISIBLE COURSE OF CONDUCT

19

ffiLE PROTECTING AGAINST MULTIPLE PUNISHMENTS v(§§ 954 AND 654). THUS, UNDER

20

EHE PUIN LANGUAGE OF THESE STATUTES, MULTIPLE PUNISHMENTS MAY NOT BE IMPOSED

21

♦OR A SINGLE "ACT OR OMISSION." (§ 654(a).) IN ADDITION, § 654 PROHIBITS MUL­

22 TIPLE PUNISHMENT FBR MULTIPLE ACTS WHICH COMPRISE AN " INDIVISIBLE COURSE OF
23

X)NDUCr."(SEE PEOPLE V. HESTER (2000), 22 CAL. 4TH 290,294). AND FURTHER PRO­

24 HIBITS MULTIPLE PUNISHMENT FOR SEVERAL CHARGES TRIED IN A SINGLE TRIAL (SEE
25

. WITKIN, SUMMARY OF CALIFORNIA CRIMINAL UW 3D (WESTUW (2000)) CHAPTER III

26 DEFENSES § 168). THIS IS A CLEAR INDICATION OF THE LEGISUTUREi'iS INTENT NOT
21'

rJ) AUTHORIZE AS CONSTITUTIONALLY PERMISSIBLE CONSECUTIVE SENTENCES WHEN TWO

28 DISTINCT CRIMES ARE COMMITTED DURING A SINGLE CRIMINAL EPISODE COMPRISING AN

5
1

INDIVIDUAL COURSE OF CONDUCT, AS SEEN ABOVE, DUE TO DIFFERENT PROVISIONS OF

2 EACH STATUTE AND PENAL CODE, THE LEGISLATIVE INTENT OF WHAT SENTENCE IS AUTHO­
3 RIZED FOR MUITIPLE OFFENSES IS NOT CLEAR ON ITS FACE, AND BECAUSE THE LEGISLA­
4 TIVE INTENT IS NOT CRYSTAL CLEAR, THE ONLY QUESTION AS TO THE MULTIPLE PUNISH5 4ENTS WOULD BE : WHAT PUNISHMENTS ARE CONSTITUTIONALLY PERMISSIBLE ?
6
7

ARGUMENT TWO
BECAUSE THE SENTENCING COURT IMPOSED GREATER PUNISHMENT THAN THE
LEGISLATURE INTENDED, PETITIONER'S SENTENCE MAY NOT BE CONSTITU­
TIONALLY PERMISSIBLE.

8
9

3ECAUSE THE SUBSTANTIVE POWER TO PRESCRIBE CRIMES AND PUNISHMENTS IS VESTED

10

vITH THE LEGISLATURE, THE QUESTION UNDER THE DOUBLE JEOPLARY CLAUSE OF WHETHER

11

PUNISHMENTS ARE "MULTIPLE IS ESSENTIALLY ONE OF UEGISLATIVE INTENT*.' (SEE BROWN

12 7. OHIO (1977), 432 U.S. 161; PLACENCIA V. ALAMEIDA, 467 F.3D 1190,11204 (9TH
13

URI: 2006);OHIO V. JOHNSON, 467 U.S. 493,499.) WITH RESPECT TO CUMULATIVE SENT­

14 ENCES IMPOSE IN A SINGLE TRIAL, " THE DOUBLE JEOPARDY CLAUSE DOES NO MORE
15

HAN PREVENT THE SENTENCING COURT FROM PRESCRIBING GREATER PUNISHMENT THAN THE

16

J3GISIATURE INTENDED." (MISSOURI V. HUNTER 459 U.S. 359,366; JONES V. THOMAS

17 '1989) 429 U.S. 376,381) WHEN THE LEGISLATURE INTENDS TO IMPOSE MULTIPLE PUNI­
18 SHMENT DOUBLE JEOPARDY IS NOT INVffiLKED (PLACENCIA, 467 F.3D AT 1204).
19
20

HERE... A. LEGISLATURE SPECIFICALLY AUTHORIZES CUMULATIVE PUNISHMENT... A COURTS

21

ASK OF STATUTORY CONSTRUCTION IS AT AN END AND THE... TRIAL COURT MAY IMPOSEd

22

EULATIVE PUNISHMENT UNDER SUCH STATES IN A SINGLE TRIAL (MISSOURI V. HUNTER,459

23

.S. 359,368,369. ) IN CALIFORNIA, THE LEGISLATURE HAS MADE ITS INTENT CRYSTAL

24

LEAR, IF THE SEVERAL CHARGES ARE TRIED IN A SINGLE PROCEEDING THE DEFENDANT

25

4AY BE FOUND GUILTY OF ALL THE OFFENSES, BUT UNDER PENAL CODE § 654, ONMY ONE

26

PUNISHMENT MAY BE IMPOSE. (SEE 1 WITKIN,SUMMARY OF CALIFORNIA CRIMINAL LAW 3D

27-

[WESTLAW (2000)) CHAPTER III DEFENSES § 168.) SEE ALSO NEAL V. CALIFORNIA, 55

28

CAL. 2D 11,H8-19)(DISTINCT CRIMES MAY BE CHARGES) IN SEPERATE COUNTS IN ONE PRO-

6

1

DEEDING AND MAY RESULT IN MULTIPLE GUILTY VERDICTS, BUT SENTENCES MAY BE FOR

2 )NE'OFFENSE,i.e. > THE ONE CARRYING THE HIGHEST PUNISHMENT, PURSUANT TO PENAL
3 XJDE § 654,) PENAL CODE § 654 ALSO PRECLUDES MULTIPLE PUNISHMENTS FOR A SINGLE
4 ACT OR INDIVISIBLE COURSE OFiOONDUCT. (PEOPLE V. HESTER, (2000) 22 CAL. 4TH 29)
5 !94.)
6
7 BECAUSE ALL CAINES’S COUNTS FOR KIDNAPING FOR PURPOSES^ ROBBERY AND ROBBERY
6

WERE TRIED IN A SINGLE TRIAL AND THE PROSECUTOR AGREED THAT CAINES WHOLE PURP-

9

POSE WAS TO ROB THE VICTIMS AND WHEN THE MOVEMENT1 TO THE BANK BEGAN IT WAS TO

10

FURTHER THAT GOAL, AND THE TRIAL JUDGE ALSO CONCEEDED THAT THE CRIMES AND OBJ­

11

ECTIVES IN THIS CASE WERE ONE SINGLE INTENT AND OBJECTIVE TO OBTAIN MONEY FROM

12

[HE VICTIMS AND WAS A CONTINUOUS COURSE OF CONDUCT, AND BECAUSE IT WAS NOT THE

13

.EGISLATUREfS INTENT TO PERMIT MULTIPLE PUNISHMENTS UNDER THE ABOVE mm

14 ’[HE ONLY QUESTION AS TO THE MULTIPLE SENTENCE IMPOSED ON CAINES IS WHETHER THE
15 PETITIONER'S' SENTENCE IS CONSTITUTIONALLY PERMISSIBLE ?
16

CONCLUSION

17

BECAUSE THE LEGISLATIVE INTENT OF WHAT PUNISHMENTS ARE CONSTITUTIONALLY PERMIS-

18 SIBLE IS NOT CLEAR ON ITS FACE AND BECAUSE THE RECORD ESTABLISHES ONLY A SINGL1
19

RIAL IN WHICH MULTIPLE GUILTY VERDICTS WERE FOUND BUT SEPERATE PUNISHMENTS

20 IMPOSED AND BECAUSE THE SENTENCING COURT SPECIFICALLY FOUND THAT THE CRIMES AN!
21

OBJECTIVES IN THIS CASE WERE NOT INDIVIDUAL AND SEPERATE ACTS BUT "ONE SINGLE

22 LCT WITH ONE INTENT AND OBJECTIVE" COMPRISING OF ONE CONTINUOUS COURSE OF CON­
23 DUCT. CAlNESl'iS SENTENCE MAY REFLECT A CONSTITUTIONAL VIOLATION AND REVIEW IS
24 ' E6ESSARY TO SETTLE IMPORTANT QUESTIONS OF LAW.
25
26

1HE PETITION FOR WRIT OF CERTIORARI SHOULD BE GRANTED.

27-

RESPECTFULLY SUBMITTED

28

JJKE W. CAIN

SI

f

